     Department of Homeland Security





        FEMA Should Recover $3.2 Million of Public
   Assistance Grant Funds Awarded to the Moss Point
            School District - Hurricane Katrina




DA-13-13                                       March 2013

                                 OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                                                       "AR
                                                       ."       'I ~.   '(''''3
                                                                          -~I




MEMORANDUM FOR '                     Major P. (Phil) May
                                     Regional Adm i nistr~tor, Region IV
                                     Federal Emerge y~anagement Agency

FROM:                                D MKhael Bear
                                                           or
                                                                ~",:;/
                                                                Genera~
                                                                          #£--    F<
                                     Office of Emergency Management Oversight

SUBJECT:                             FfMA Should Recover $3,2 Million of Pvbli. A5sistann,
                                     Grant Fvnds Awarded to the Moss Point School District-
                                     Hvrricane Katrina
                                     FEMA Disaster Number 1604-DR-MS
                                     Audit Report Number DA·13· 13

We Jvdited Public Assistance funds awarded to the Moss Point Schoo l District (Di,trict) in Moss
Po int, Mississ ippi (FIPS Code 059-00Hl-(0). Our audit objective was to determine whether the
District accounted for and expended Federal Emergency Management Agency (FEMA) funds
according to Federal regulations and FEMA guidelines.

The District received an aWJrd of $24,8 million from the Missis,ippi Emergency Management
Agency (State), a FEMA grantee, for damages resulting from Hurricane Katrina, which occurred
in August 2005, The award provided 100 percent FEMA funding for debris remova l activities,
emergency protecti~e measures, and pe rmanent repair~ to buildings and facilities_ The award
consi~ted of 38 large projects and 37 small projects.'

We audited five large projects with awards tota ling $17.4 mi llion_ The audit covered the period
of Augu5t 29, 2005, to March 13, 1012, during which the District claimed $4,3 million in FEMA
funds for the five projects (see hhibit, Schedvle of Projects Audited),' At the time of our audit,
the District had not completed work on al l projects and, therefore, had not submitted a final
claim to the State for ~II project expenditures.

We conducted this pl'rformance audit between March and September 1012 pursuant to the
Impector Gf.!!\eral Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standa rds require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reawnable basis for our f indings and conclusions


, fed.,. 1 rer,u l.tion, in effect .tthe time of HUfriconc K"trin. ",t Ih~ I.r ge proj." Ihre,hold at $55,500 .
• findin~ D i< an exception to thi' cutoff dote he<' "_'" W~ p"rform"" procedure< Ihrough Ju ne 30, 1011,


                                                                                                                  OA 13 13
                           OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. To conduct this audit, we
applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed District,
State, and FEMA personnel; reviewed the District’s procurement policies and procedures;
reviewed applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary under the circumstances to accomplish our audit objective. We did not
assess the adequacy of the District’s internal controls applicable to its grant activities because it
was not necessary to accomplish our audit objective. However, we gained an understanding of
the District’s method of accounting for disaster-related costs and its policies and procedures for
administering activities provided for under the FEMA award.


                                        RESULTS OF AUDIT

FEMA should recover $3.2 million of grant funds awarded to the District. The District did not
(1) separately account for project expenditures as required by Federal regulations, (2) comply
with Federal procurement procedures when awarding contracts totaling $3,144,531 for
emergency and permanent work, (3) adequately support and ensure the eligibility of claimed
costs of $66,016, and (4) have procedures in place to ensure that the interest earned on FEMA
advances is remitted to FEMA as required.

Finding A: Project Accounting

The District did not separately account for project expenditures as required by Federal
regulations. According to 44 CFR 13.20(b)(2), grant recipients are required to maintain
accounting records that adequately identify the source and application of funds for federally
sponsored activities. The District established a special account within its general ledger to
record disaster expenditures and receipts. However, the account did not separately identify
expenditures and receipts by project, and contained non-FEMA eligible expenditure and receipt
transactions. As a result, individual project receipts and expenditures could not be readily
identified and traced to supporting documentation without direct assistance from District and
State officials, which increased the risk of receipts and expenditures being duplicated among
projects.

District Response. District officials disagreed that its accounting procedures do not satisfy the
requirements of 44 CFR 13.20(b)(2). The District contends that it maintained books for each
project that contain information on receipts and disbursements by project. The District further
stated that it is in compliance with the Governmental Accounting Standards Board (GASB) and
Generally Accepted Accounting Principles (GAAP) requirements.

www.oig.dhs.gov                               2                                      DA-13-13
                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 




Office of Inspector General (OIG) Response. We disagree that the District’s accounting
procedures satisfied Federal grant accounting requirements. The books referred to by the
District contained contracts, when available, copies of invoices, and in some cases a summary
of documentation to support the claimed amount. They did not separately identify the costs by
FEMA project. The accounting requirements of 44 CFR 13.20(b)(2) go beyond the requirements
of GASB and GAAP. Therefore, because there is no new evidence, the finding remains
unchanged.

Finding B: Contracting Procedures

The District did not comply with Federal procurement standards when awarding contracts
valued at $3,144,531 for emergency and permanent work. Federal procurement regulations at
44 CFR 13.36 required the District, among other things, to—

   •	 Take all necessary affirmative steps to assure that minority firms, women’s business
      enterprises, and labor surplus area firms are used, when possible, during the
      procurement process. (44 CFR 13.36(e)(1))

   •	 Conduct all procurement transactions in a manner providing full and open competition.
      Noncompetitive procurement may be used under certain circumstances, one of which is
      when the public exigency or emergency will not permit a delay resulting from
      competitive solicitation. (44 CFR 13.36 (c)(1) and 44 CFR 13.36(d)(4)(i)(B))

   •	 Perform a cost or price analysis in connection with every procurement action, including
      contract modifications, to determine the reasonableness of the proposed contract price.
      A cost analysis is required when adequate price competition is lacking. (44 CFR
      13.36(f)(1))

In addition, FEMA’s Public Assistance Guide (FEMA 322, Public Assistance Guide, October 1999,
p. 39) specifies that—

   •	 Contracts must be of reasonable cost, generally must be competed, and must comply
      with Federal, State, and local procurement standards.

   •	 Noncompetitive proposals should be used only when the award of a contract is not
      feasible under small purchase procedures, sealed bids, or competitive proposals, and
      one of the following circumstances applies: (1) the item is available only from a single
      source, (2) there is an emergency requirement that will not permit a delay, (3) FEMA
      authorizes noncompetitive proposals, or (4) solicitation from a number of sources has
      been attempted and competition is determined to be inadequate.


www.oig.dhs.gov                            3	                                    DA-13-13

                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 


FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by-
case basis (44 CFR 13.6(c)).

Minority Firms, Women’s Business Enterprises, and Labor Surplus Firms Not Adequately
Considered

The District could not provide evidence that it took affirmative steps to include minority firms,
women’s business enterprises, and labor surplus area firms in its bid process for three contracts
valued at $1,234,661 (Projects 7697and 8074). District officials said that they were not aware
of this Federal procurement requirement and believed that when they advertised projects in
the newspaper that everyone had an equal chance to bid on the work. District officials also said
that they coordinated with the Mississippi Development Authority (MDA) prior to soliciting bids
for the contract work, which they believed satisfied the procurement requirement. However,
District officials did not provide any evidence to support their assertion that they coordinated
with MDA on all contract work in Projects 7697or 8074. As a result, we concluded that the
District did not always take affirmative steps to give such business enterprises opportunities
available to them under Federal regulations to participate in federally funded work. Therefore,
we question the $1,234,661 awarded for those contracts.

The amount questioned includes contract costs valued at $39,292 under Project 7697,
$629,923 under Project 8074, and $565,446 under Project 7697 that we are also questioning
because full and open competition and cost/price analyses requirements were not met (see
discussion of the findings below). Therefore, the net amount questioned in this finding is zero.

District Response. District officials disagreed with our position that FEMA should disallow the
entire contract amounts. They said that advertisements were sent to MDA for posting prior to
bidding out the contract work, which they feel sufficiently satisfies the Federal procurement
requirement to take affirmative steps to include minority firms, women’s business enterprises,
and labor surplus area firms in the bid process.

OIG Response. District officials did not provide any evidence to support their assertion that
they coordinated with MDA for the contracts we are questioning in Projects 7697 and 8074.
Therefore, our position remains unchanged.

Full and Open Competition

The District did not solicit competitive bids when awarding contracts for permanent work
totaling $800,465. Full and open competition increases the probability of reasonable pricing
from the most qualified contractors and helps discourage and prevent favoritism, collusion,
fraud, waste, and abuse. We question the $800,465, as follows:



www.oig.dhs.gov                             4                                    DA-13-13

                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 


   •	 Project 7697 authorized the repair of baseball and softball fields at Moss Point High
      School. The District hired an architectural and engineering (A/E) firm it had used prior
      to Hurricane Katrina to perform A/E services valued at $39,292 to repair the fields.
      According to District officials, the District had a long-standing relationship with the A/E
      firm since 1970 and decided to retain the firm to repair the baseball and softball fields
      rather than seek competitive bids.

   •	 Project 8074 authorized the replacement of Magnolia Junior High School. The District
      hired an A/E firm, without adequate competition, for A/E services valued at $629,923
      for the design and construction of the school. District officials said that the Moss Point
      School District Board of Education interviewed two A/E firms for the work, but did not
      openly solicit competitive bids.

       Also, under Project 8074, the District hired an A/E firm for project management services
       valued at $131,250 without seeking competitive bids. According to District officials,
       they hired the firm after contacting at least two firms for proposals, but they did not
       publicly advertise the work. Further, the District used a qualifications-based contracting
       method to select the firm from the proposals they received. However, such contracting
       method can only be used to procure professional A/E services. Federal regulations do
       not allow the purchase of other types of services from A/E firms, such as project
       management services using qualifications-based contracting (44 CFR 13.36(d)(3)(v)).

District officials said that they believed that Federal competition requirements did not apply to
the contract work because the Governor of Mississippi had declared a state of emergency after
the storm. Although Federal regulation 44 CFR 13.36 (d)(4)(i)(B) allows procurements by
noncompetitive proposals when the public exigency or emergency for the requirement will not
permit a delay resulting from competitive solicitation, the contract work in question was for
permanent work and not emergency work. Therefore, we question $800,465 of contract work
that was procured without full and open competition.

District Response. District officials disagreed with our position that FEMA should disallow the
entire contract amounts because they procured the services in the most efficient and cost-
effective manner under the circumstances. They said, for Project 7697, the District used the
A/E firm that it had done business with since 1970 because it was satisfied with the firm’s
performance and the A/E firm was familiar with its facilities and procedures. As for Project
8074, District officials said that they considered two firms for A/E services and project
management services and that information for both contracts was on their website and,
therefore, any interested contractor could have attended the meeting and given a presentation
for their consideration.

OIG Response. We disagree with the District’s position because the contract work in question
was not competed, as required by Federal regulation. Further, according to the State-Local

www.oig.dhs.gov                             5	                                     DA-13-13

                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 


Disaster Assistance Agreement, the District agreed to comply with all applicable provisions of
Federal and State law and regulation in regard to procurement of goods and services.

Cost/Price Analysis

The District did not perform a cost or price analysis when procuring contract work valued at
$2,410,082. A cost or price analysis is required in connection with every procurement action,
including contract modifications, to determine the reasonableness of the contractor’s proposed
price (44 CFR 13.36(f)(1)). Therefore, we question $2,410,082, as follows:

   •	 Under Project 7697, the District did not perform a cost or price analysis for contract
      work to repair baseball and softball fields and lighting valued at $565,446. The District
      publicly advertised the work and 17 contractors requested bid packages. However, only
      one contractor submitted a sealed bid, and the District accepted the contractor’s
      proposal for the work. Because the District received only one bid, Federal procurement
      standards required it to perform a cost analysis to determine the reasonableness of the
      contractor’s proposed price. District officials said that they believed that a cost analysis
      was not required since the work was competed. However, Federal procurement
      regulations require a cost/price analysis to determine the reasonableness of the
      contractor’s proposed price for every procurement action. We question the $565,446.

   •	 Under Projects 10159, 10203, and 10844, the District did not properly perform a cost or
      price analysis for emergency services valued at $1,844,636. The District entered into a
      noncompetitive time-and-materials contract for emergency cleaning, sanitation, and
      mold remediation. District officials said that they believed that Federal competition
      requirements did not apply to the contract work because the Governor of Mississippi
      had declared a state of emergency after the storm. Although the mold remediation
      work justified the use of a noncompetitive contract, Federal procurement regulations
      require a cost/price analysis to determine the reasonableness of the contractor’s
      proposed price. Therefore, we question the $1,844,636. The amount questioned
      includes $66,016 of contract costs that we also questioned as unsupported and
      ineligible under finding C. Therefore, the net amount questioned in this finding is
      $1,778,620.

District Response. District officials disagreed with our position that FEMA should disallow the
entire contract amounts. During the exit conference, District officials said that they compared
the contractor’s proposal for project costs under Project 7697 with costs that FEMA had
approved under a similar hazard mitigation project for a neighboring school and determined
that the contractor’s bid was reasonable. Further, the officials said that costs claimed for work
under Projects 10159, 10203, and 10844 were reasonable because the contractor’s rates had
been in place for more than a year before the disaster and that emergency circumstances
dictated that the work be completed as quickly as possible.

www.oig.dhs.gov                              6	                                   DA-13-13

                                OFFICE OF INSPECTOR GENERAL 

                                        Department of Homeland Security 




OIG Response. According to 44 CFR 13.36(f)(1), independent cost estimates must be made
before receiving bids or proposals. District officials did not provide us with any documentation
to support their assertion that a cost/price analysis was performed before the contracts were
awarded under Project 7697. Therefore, our position remains unchanged.

In summary, based on the District’s procurement actions, FEMA has no assurance that the
District paid a fair and reasonable price for the contract work and that minority firms, women’s
business enterprises, and labor surplus firms were provided opportunities, to the extent
practical, to participate in federally funded work. Although the District claimed that it was not
thoroughly familiar with the Federal procurement requirements, a lack of knowledge of Federal
grant administrative requirements is not an adequate defense in not complying with Federal
regulations. Further, we believe that the State and/or FEMA should have done a better job in
identifying these improper procurement activities during its review process. Therefore, we
question a total of $3,144,531 of contract work that was not procured in accordance with
Federal requirements, as shown in table 1.

                   Table 1. Questioned Costs for Federal Contracting Procedures
                                                                                             Minority/       Total
   Project                               Amount            Full and Open    Cost or Price    Women/         Amount
   Number          Project Scope         Awarded            Competition       Analysis      Labor Firms    Questioned
    7697     Moss Point High School       $549,854                $39,292      $565,446               $0     $604,738
             Baseball/Softball Fields
    8074     Magnolia Jr. High School    14,959,062              761,173              0               0       761,173
    10159    Emergency Protective           303,900                    0        293,033               0       293,033
             Measures (EPM)-
             Escatawpa Elementary
             School
    10203    EPM-Ed Mayo Jr. High          577,634                     0        552,619               0       552,619
             School
    10844    Magnolia Jr. High School       967,883                    0        932,968               0       932,968
    Totals                              $17,358,333             $800,465     $2,344,066              $0    $3,144,531


Finding C: Unsupported and Ineligible Contract Costs

The District’s claim included $66,016 of unsupported and ineligible contract costs, as follows:

   •	 Unsupported Costs. The District did not have adequate documentation to support
      $37,886 of contractor time-and-materials charges. Cost principles at 2 CFR Part 225,
      Appendix A, Section C.1.j, state that a cost must be adequately documented to be
      allowed under Federal awards. Further, as stated in FEMA’s Policy Digest (FEMA 321,
      October 2001, p. 20), applicants must carefully document contractor expenses when
      using time-and-material contracts.



www.oig.dhs.gov                                       7	                                               DA-13-13

                                   OFFICE OF INSPECTOR GENERAL 

                                              Department of Homeland Security 


           The contractor billed the District $30,003 for the use of small tools, which was based on
           contract terms that allowed a “Small Tool” charge equal to 3 percent of labor charges.
           However, the contractor was not required to provide the District with documentation to
           support usage of the tools.

           In addition, the contractor’s material and equipment usage reports did not support the
           amount invoiced to the District, causing the District to be overbilled by $4,816 for
           materials and $3,067 for equipment.

           Therefore, we question $37,886 of unsupported costs.

    •	 Ineligible Costs. The District claimed $28,130 of contract costs that were unnecessary
       and unreasonable. The contractor billed the District $28,130 under a contract category
       called “Reimbursables” at cost plus a 20 percent markup for overhead expenses. The
       reimbursables included costs such as pizza, ATM fees, bedding, linens, towels, groceries,
       meals, and tools. However, the District already paid the contractor for travel, lodging,
       and per diem plus a 20 percent markup on these rates. According to 2 CFR Part 225,
       Appendix A, Section C.1.a, a cost must be necessary and reasonable to be allowed under
       Federal awards. Therefore, we question the $28,130.

           Table 2 identifies the $66,016 of unsupported and ineligible contract costs and related
           projects. Although the District paid the contractors those amounts, the District should
           not receive reimbursement from the State for expenses that are unsupported and
           ineligible. Therefore, those expenses should have been identified in the State and/or
           FEMA’s review process.

               Table 2. Questioned Costs for Unsupported and Ineligible Contract Costs
 Project                         Amount        Reimbursables        Small Tools       Materials       Equipment       Total
 Number        Project Scope     Awarded         (Ineligible)     (Unsupported)     (Unsupported)   (Unsupported)   Questioned
  10159      Emergency            $303,900               $4,630            $4,939            $793            $505      $10,867
             Protective
             Measures (EPM)-
             Escatawpa
             Elementary
             School
  10203      EPM-Ed Mayo Jr.       577,634               8,679             9,257            1,486            946         20,368
             High School
  10844      Magnolia Jr. High     967,883              14,821            15,807            2,537           1,616        34,781
             School
  Totals                         $1,849,417           $28,130            $30,003           $4,816          $3,067       $66,016


District Response. District officials disagreed with our finding. They said that the State and
FEMA performed tests prior to our audit and found $3,361 in unsupported costs; therefore, all
other costs were eligible and reasonable. They also said that the 3 percent charge for small
tools was agreed upon by both parties of the contract. According to the officials, if payment


www.oig.dhs.gov                                              8	                                              DA-13-13
                          OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 


was based on actual usage for small tools, it would have resulted in higher overall costs due to
tracking and other administrative costs incurred by the contractor and passed on to the District.
Further, they said that the contractor hired additional workers outside of their normal crews to
complete the emergency work for Projects 10159, 10203, and 10844. Therefore, they said
these workers were paid a lower wage and did not receive per diem, which is why their expense
for feeding and housing was billed separately to the District.

OIG Response. We disagree that the District’s claims were supported and eligible. Although the
District agreed to pay the contractor for use of small tools based on 3 percent of labor costs,
Federal regulations state that claimed costs must be adequately documented. Without usage
reports or equivalent documentation, we could not validate that the costs were necessary and
reasonable. Additionally, District officials did not provide any additional evidence to support
their assertions that (1) the District would have incurred higher costs had it required the
contractor to document small tool usage, and (2) that the contract costs for reimbursables was
for additional workers hired by the contractor. Therefore, our position remains unchanged.

Finding D: Interest Earned on FEMA Advances

The District did not have procedures in place to ensure that interest earned on FEMA advances
is remitted to FEMA as required. Federal regulation 44 CFR 13.21(i) states that grantees and
subgrantees shall promptly, but at least quarterly, remit interest earned on advances (less $100
for administrative purposes) to the Federal agency. Further, 44 CFR 13.21(c) states that
subgrantees shall be paid in advance, provided that they maintain or demonstrate the
willingness and ability to maintain procedures to minimize the time elapsing between the
transfer of the funds and their disbursement by the grantee or subgrantee.

The District placed FEMA funds received under several FEMA projects into an interest-bearing
account. Our analysis of the account revealed that $1,417 of interest had been earned on the
advanced funds, but had not been remitted to FEMA. Although the interest amount is nominal,
the District may receive significant FEMA advances under a $14,959,062 award for the
construction of the Magnolia Jr. High School. As a result, the District should closely monitor the
account and remit earned interest from advances (less $100 for administrative purposes) at
least quarterly to FEMA.

District Response. District officials disagreed that interest had been earned on the FEMA
advances. They also said that they are reviewing projects monthly to ensure minimum time
elapsing between the transfer of funds and the disbursement.

OIG Response. Our review of the District’s bank records indicated that it earned $1,417 of
interest on advanced funds deposited into the account. We agree that if the District maintains
or demonstrates the willingness and ability to maintain procedures to minimize the
circumstances to earn interest, the requirements of 44 CFR 13.21(c) will be satisfied.

www.oig.dhs.gov                              9                                    DA-13-13

                           OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 





                                      RECOMMENDATIONS 


We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Instruct the State to remind subgrantees of their requirement to account
for large projects on a project-by-project basis (finding A).

Recommendation #2: Disallow $3,144,531 of ineligible costs claimed for contracts that were
not procured in accordance with Federal requirements, unless FEMA decides to grant an
exception for all or part of the costs as provided for in 44 CFR 13.6(c) and Section 705(c) of the
Robert T Stafford Disaster Relief and Emergency Assistance Act, as amended (finding B).

Recommendation #3: Instruct the State to remind subgrantees of their requirement to comply
with Federal procurement regulations and FEMA guidelines when acquiring goods and services
under the FEMA award (finding B).

Recommendation #4: Disallow $37,886 of unsupported contract costs and $28,130 of ineligible
contract costs (finding C) unless the District provides additional evidence to show the costs are
supported and eligible.

Recommendation #5: Reemphasize to the State and FEMA Region IV Public Assistance
personnel the need to adequately review costs claimed by subgrantees for adherence to
Federal regulations and FEMA guidelines (finding C).

Recommendation #6: Instruct the State to notify the District of its requirement to remit any
interest earned on FEMA advanced funds at least quarterly (less $100 allowed yearly for
administrative costs), or reduce project funding accordingly for any interest earned on
advances (finding D).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our audit with the District, State, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at the exit
conference held on September 27, 2012. District officials disagreed with our findings and
recommendations. Their comments, where appropriate, are included in the body of the report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties

www.oig.dhs.gov                              10                                    DA-13-13

                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 


and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Larry Arnold, Audit Manager; Melissa Powe Williams, Auditor-in-charge; and Alicia Lewis,
Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                            11                                    DA-13-13

                             OFFICE OF INSPECTOR GENERAL 

                                     Department of Homeland Security 


                                                                                              EXHIBIT

                                   Schedule of Projects Audited 

                                August 29, 2005, to March 13, 2012 

                                    Moss Point School District 

                                FEMA Disaster Number 1604-DR-MS 




     Project                                        Amount       Amount        Amount
     Number               Project Scope             Awarded      Claimed      Questioned   Finding
      7697     Moss Point High School                $549,854     $759,305      $604,738      B
               Baseball/Softball Fields
      8074     Magnolia Jr. High School             14,959,062    1,655,825      761,173     B
      10159    Emergency Protective Measures           303,900      303,900      293,033     B
               (EPM)-Escatawpa Elementary School                                  10,867     C
      10203    EPM-Ed Mayo Jr. High School            577,634      577,634       552,619     B
                                                                                  20,368     C
      10844    Magnolia Jr. High School               967,883      971,244       932,968     B
                                                                                  34,781     C
      Totals                                       $17,358,333   $4,267,908   $3,210,547




www.oig.dhs.gov                               12                                     DA-13-13

                           OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 


                                                                             Appendix


                                       Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Chief Procurement Officer
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-023)

State
Executive Director, Mississippi Emergency Management Agency
State Auditor, Mississippi

Subgrantee
Chief Financial Officer, Moss Point School District

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                              13                         DA-13-13

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
